HHS/OIG-Audit--"Review of Medicare Payments to Health Maintenance Organizations for Medicaid Special Status Beneficiaries, (A-04-94-01089)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments to Health Maintenance Organizations for Medicaid Special Status Beneficiaries," (A-04-94-01089)
July 14, 1995
Complete
Text of Report is available in PDF format (749 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Care Financing Administration (HCFA) makes fixed monthly payments to health maintenance organizations (HMOs)
for Medicare beneficiaries. The payment rate is increased for certain high-cost categories of beneficiaries. Medicare beneficiaries
who are also eligible for Medicaid (Medicaid status) make up one of these high-cost categories. This final report points
out that based on OIG's earlier work the HCFA has identified overpayments to HMOs nationwide totaling almost $70.5 million
for beneficiaries who were not eligible for Medicaid. The overpayments occurred because an interface between HCFA computer
systems did not recognize those beneficiaries initially classified as Medicaid-status, but who had subsequently lost their
Medicaid eligibility. The HCFA concurred with our recommendation that HCFA take action to collect the overpayments.